In the
Supreme Court of the United States
James Lawrence Pro Se
Petitioner
V

Altice USA
Respondents
On Petition for a Writ of Certiorari to the United States Court of Appeals for the Second
Circuit
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
\

I, James Lawrence, Pro Se counsel of record, hereby certify that on the 27th day of Sept.
2021,1 caused to be served three (3) copies of the Petition for a Writ of Certiorari in the
above- referenced case by EMAIL as requested by Respondent upon the counsel for
Respondents as listed below. In accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to counsel for Respondents at the
Email address KateBolger@dwt.com.
Kate Bolger
Davis Wright Tremaine LLP
1251 Avenue of the Americas - 6th floor
New York New York 10020-1104
•

Bolger, Kate

■*

tom* -

£36 PM (I hour (go)

HI Mr. tawrenco
t win accept service by emal
Thanks
Kate Bolger
From: James Larenaissanee <sancorooman®omaff.com>
Sent: Friday, May 21.2021 10:51 AM
To: Bolger. Kate <Kato9elgeftetfrvt-com>
Subject:

I further certify that all parties required to be served have been served.
By
James Lawrence Pro Se
1655 Post Road East
Westport, Connecticut
RECEIVED
06880
Email: Sancorgoman@gmail.com - best means to contact
OCT - 1 2021
SUPREEMEFd?URTLnQ<

